BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 19-968
CHIKE UZUEGBUNAM, ET AL.,

Petitioners,
V.

STANLEY C. PRECZEWSKI, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Amici Curiae Brief of Justice and Freedom
Fund, Students for Life of America, Ratio Christi,
Young America's Foundation, and Turning Point USA
Supporting Petitioners contains 3,726 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 29, 2020.

Donna J. Wolf
Becker Gallagher Legal Pub ·shing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
, Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

JOHN D. GALLAGHER
Notary Public, SIBie of Ohio
My Commission Expires
February 14, 2023

